No. 19-932

IN THE

Supreme Court of the United States

In re JULIUS MURPHY,
Petitioner.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit and on Original Petition
for a Writ of Habeas Corpus

CERTIFICATE OF WORD COUNT COMPLIANCE

I hereby certify, pursuant to Rule 38.1(h), that Respondent’s Brief in
Opposition contains 8,970 words, excluding parts of the brief exempted by Rule
33.1(d). Iam a member of the Bar of this Court.

 

sistant Attorney General
Counsel of Record

OFFICE OF THE ATTORNEY
GENERAL OF TEXAS
P.O. Box 12548
Austin, Texas 78711
Telephone: (512) 936-1400
Email: jay.clendenin@oag.texas.gov

Counsel for Respondent
